HHS/OIG - Audit,"Audit of Costs Claimed on the Medicare Cost Report by the Prince William Annaburg Manor for Fiscal Year Ended June 30, 1998,"(A-03-00-00215)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Costs Claimed on the Medicare Cost Report by the Prince William Annaburg Manor for Fiscal Year Ended June
30, 1998," (A-03-00-00215)
March 7, 2002
Complete
Text of Report is available in PDF format (558 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The purpose of this audit was to determine whether costs claimed by Prince William Annaburg Manor (PWAM), a Medicare skilled
nursing facility, on the Fiscal Year (FY) 1998 Medicare cost report were in accordance with Medicare reimbursement requirements.
Our audit disclosed that $1,582,079 or about 13 percent of the total claimed by PWAM were in violation of Medicare regulations.  We
recommended that Mutual of Omaha, the fiscal intermediary, adjust the FY 1998 Medicare cost report for the $1,582,079 improperly
claimed, and insure that PWAM strengthens its procedures to preclude claiming unallowable cost.